Case 20-1885, Document 14, 10/22/2020, 2958109, Pagel of 2
N.D.N.Y.
20-cv-505
20-cv-506
20-CV-536
Baxter, M.J.
20-cv-517
Hurd, J.
Baxter, M.J.
20-cv-638
McAvoy, J.
Baxter, M.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 22nd day of October, two thousand twenty.

Dashon Hines,
Petitioner-Appellant,
20-1609

v.
TopShelf Management,
Respondent-Appellee.

Dashon Hines,
Petitioner-Appellant,
20-1627

v.
New York State Office of Temporary and Disability Assistance,
Respondent-Appellee.

Dashon Hines,
Plaintiff-Appellant,
v.

20-1656

Case 20-1885, Document 14, 10/22/2020, 2958109, Page2 of 2
Erie County Department of Social Services,
Defendant-Appellee.
Dashon Hines,
Plaintiff-Appellant,
20-1885

v.
New York State Department of Labor Staff,
Defendant-Appellee.
Dashon Hines,
Plaintiff-Appellant,
v.

20-2728

Lt. Rose J. Dell, Lt. New Haven Police Department,
Defendant-Appellee.
It is hereby ORDERED that these five proceedings are CONSOLIDATED for the purposes of this
order.
In May 2016, this Court entered a leave-to-file sanction against Petitioner Dashon Hines. In re
Dashon Hines, 2d Cir. 15-4094 (Order dated 5/5/2016). Petitioner now moves for leave to file
these five appeals. Upon due consideration, it is hereby ORDERED that the motions are DENIED
because the appeals do not depart from Petitioner’s “prior pattern of vexatious filings.” In re
Martin-Trigona, 9 F.3d 226, 229 (2d Cir. 1993).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
W *S“kA

2

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
DASHON HINES,
Plaintiff,
v.

5:2G-CV-505
(MAD/ATB)

TOPSHELF MANAGEMENT,
Defendant.
DASHON HINES, Plaintiff pro se
ANDREW T. BAXTER
United States Magistrate Judge
DECISION and ORDER
The Clerk has sent to me for initial review, a pro se complaint, submitted by
plaintiff Dashon Hines. (Complaint (“Compl.”)) (Dkt. No. 1). Plaintiff has also filed an
application to proceed in forma pauperis (“IFP”). (Dkt. No. 2).
I.

IFP Application
Plaintiff declares in his IFP application that he is unable to pay the filing fee.

(Dkt. No. 2). After reviewing his application, it is clear that plaintiff has failed to
properly complete his application. He has failed to answer whether he obtains money
from “any other sources.” (Dkt. No. 2, % 3(F)). However, based on the following
analysis and because this court is transferring this action to the Western District of New
York, the court will leave a determination of the merits of plaintiffs IFP application to
the transferee court.
II.

Complaint
Plaintiff alleges that defendant TopSheIf Management fired him on March 19,

2020 in retaliation for filing complaints with the Equal Opportunity Employment
Commission ( EEOC ’). (Complaint (“Compl.”)) (Diet. No. 1). For a more detailed
statement of plaintiff s claim, reference is made to the complaint herein.
III.

Venue
A.

Legal Standards

Under 28 U.S.C. § 1391(b), a civil action may be brought in “(1) a judicial
district in which any defendant resides, if all defendants are residents of the State in
which the district is located; (2) a judicial district in which a substantial part of the
events or omissions giving rise to the claim occurred, or a substantial part of property
that is the subject of the action is situated; or (3) if there is no district in which an action
may otherwise be brought as provided in this section, any judicial district in which any
defendant is subject to the court's personal jurisdiction with respect to such action.” 28
U.S.C. § 1391(b).
When a case is filed in a district in which venue is improper, the court shall
dismiss the case or, “if it be in the interest ofjustice, transfer such case to any district
. in which it could have been brought.” 28 U.S.C. § 1406(a).
B.

Application

Venue in this district is improper. Plaintiff resides in Buffalo, New York which
is in the Western District of New York. (Compl. f 2). He is suing a company which is
listed as having its place of business in Buffalo, New York. (Compl. ^ 3). The exhibits
attached to plaintiffs complaint, including the complaint that he made to the EEOC ail

2

relate to acts or omissions that occurred in Buffalo, New York.1 (Compl. generally).
There is absolutely no connection to the Northern District of New York, and thus,
venue is improper. The court must then determine whether the case should be
dismissed, or transferred in the interests ofjustice.
According to the venue statute, the court could dismiss this action. However,
this plaintiff appears to have filed this action in the Northern District of New York to
avoid an order barring him from filing cases in the Western District of New York
without permission from the court. The court notes that plaintiff has been issued bar
orders in both the Western District of New York and in the Second Circuit Court of
Appeals. See In re Hines, No. 17-2090, 2017 WL 6803304 (2d Cir. July 28, 2017)
(stating that on May 5, 2016, the Second Circuit “entered an order in In Re: Dashon
Hines, 15-4094 requiring [plaintiff] to file a motion seeking leave of this Court prior to
filing any future appeals”); In re Hines, No. 13-MC-27A, 2005 WL 500800 (W.D.N.Y.
Feb. 3, 2015) (barring plaintiff from bringing actions in the Western District of New
York for a year). The Western District’s decision in In re Hines was reversed by the
Second Circuit to the extent that it barred plaintiff from filing any type of case for any
reason.
The Second Circuit remanded the case to the Western District of New York to
give plaintiff the opportunity to argue against this additional sanction. In re Hines, No.
15-359 (2d Cir. Apr. 15, 2015) (Dkt. No. 26 in 15-359). After giving plaintiff the

1 The court also notes that plaintiff has used the incorrect form-complaint to file this action. He
has filed the case on a form used for 42 U.S.C. § 1983 cases which are reserved for suing defendants
who act unconstitutionally, under color of state law. Plaintiff is claiming employment discrimination
under 42 U.S.C. § 2000e et seq. The form-complaint is not relevant to the transfer of this case.
3

opportunity for argument, on November 24,2015, the court in the Western District of
New York issued another order, requiring that plaintiff file a request for permission to
file a lawsuit in the Western District and holding that plaintiff would be fined if he had
three or more request denied. (Diet. No. 13 in 13-MC-27A). Plaintiffs subsequent
appeal of the new Western District order was denied by the Second Circuit on August
23,2017. (Dkt. No. 25 in 13-MC-27A).
On March 1, 2018, the Second Circuit issued another order dismissing three
consolidated appeals filed by this plaintiff because the appeals did not “depart from
‘Petitioner’s prior pattern of vexatious filings.’” In re Hines, Nos. 18-233, 18-310, 18312 (2d Cir. Mar. 1,20.18) (Dkt. No. 18 in Second Circuit consolidated appeal).
This is the second action in less than one month that plaintiff has filed with
improper venue in this district. On April 29, 2020,1 ordered the transfer of Hines v.
IRS, No. 5:20-CV-469 (DNH/ATB) (N.D.N.Y. Apr. 29, 2020). The fact that plaintiff
has filed another case with clearly improper venue in the Northern District of New
York solidifies this court’s suspicion that plaintiff is simply trying to avoid the Western
District’s bar order, which provides for sanctions if plaintiff files three or more requests
which are denied. As I stated in Hines v. IRS, plaintiff should not be allowed to avoid
these requirements by filing another lawsuit in a different district. Thus, instead of
recommending dismissal, this court will order plaintiffs case to be transferred to the
Western District of New York, where it should have been filed and where plaintiff may
have to accept the consequences of any finding that his complaint does not comply with
the Western District’s orders.
This court is also concerned that plaintiff is going to make a habit of these
4

intentionally improper filings and hereby warns plaintiff that if he continues to file
cases which clearly belong in the Western District of New York, the court may initiate
the procedure to have plaintiff barred in the Northern District of New York as
well.
Based upon the foregoing, the Court finds that venue of plaintiff s action is not
proper in. this District. The Court further determines that it is in the interest of justice to
transfer this action under Section 1406(a) to the United States District Court for the
Western District of New York. The Court makes no ruling as to the sufficiency* of the
Complaint or the merits of Plaintiffs IFP Application, thereby leaving those
determinations to the Western District.
WHEREFORE, it is
ORDERED that, pursuant to 28 U.S.C. § 1406(a), the Clerk of this Court shall
transfer this action to the United States District Court for the Western District of New
York; and it is further
ORDERED that the Clerk of this Court advise the Clerk of the Western District
of New York of the entry of this Decision and Order and provide all information
necessary for the Clerk of the Western District to electronically access the documents
filed in this action. The Court hereby waives the fourteen (14) day waiting period
provided for in Local Rule 83.6; and it is further,
ORDERED that the Clerk serve a copy of this Decision and Order on the
Plaintiff.
Dated: May 6,2020

IS *
Andrew T. Baxter
U.S. Magistrate Judge
5

Case l:20-cv-00506-DNH-ATB Document 5 Filed 05/12/20 Page lot 8

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

DASHON HINES,
Plaintiff,
v.
l:20-CV-506
(DNH/ATB)

NEW YORK STATE OFFICE OF
TEMPORARY & DISABILITY
ASSISTANCE STAFF,
Defendants.
DASHON HINES, Plaintiff pro se
ANDREW T. BAXTER
United States Magistrate Judge
DECISION and ORDER

The Clerk has sent to me for initial review, another pro se complaint, submitted
by plaintiff Dashon Hines. (Complaint (“Compl.”)) (Dkt. No. 1). Plaintiff has also filed
an application to proceed in forma pauperis (“IFP”). (Dkt. No. 2).
I.

IFP Application
Plaintiff declares in his IFP application that he is unable to pay the filing fee.

(Dkt. No. 2). It does not appear that plaintiff has completed the form properly. He
appears to allege that he has absolutely no funds from any sources whatsoever, and yet,
this complaint involves his “challenge” to a finding that he is entitled to public
assistance benefits. In any event, this court will not make any determination of the
plaintiffs application for IFP status because I am transferring this action to the Western
District of New York, where the court can make a proper determination.

Case l:20-cv-00506-DNH-ATB Document 5 Filed 05/12/20 Page 2 of 8

II.

Complaint
Plaintiff has filed this action on a form utilized for claims under 42 U.S.C.

§ 1983, which provides for a cause of action alleging that plaintiffs federal
constitutional rights have been violated by a person acting under color of state law.
(Complaint (“Compl.”)) (Diet. No. 1). In his statement of facts, plaintiff cites a March
19, 2020 decision of the New York State Office of Temporary & Disability Assistance,
finding that the “Agency’s” determination to deny plaintiffs public assistance “cannot
be sustained and is reversed.” (Compl. 4 (FACTS)). No further explanation or factual
statement is included.
On the next page of the complaint, plaintiffs First Cause of Action states that on
March 19, 2020, the New York State Office of Temporary & Disability Assistance
“issued a decision reversal indicating that Petitioner’s civil rights were violated . ...”
(Compl.

5) (First Cause of Action). Plaintiff seeks one million dollars in damages.

(Compl. ^ 6). The defendants are listed as “New York State Office of Temporary &
Disability Assistance Staff.” (Compl. f 3(a)) (emphasis added).
III.

Venue
A.

Legal Standards

Under 28 U.S.C. § 1391(b), a civil action maybe brought in “(1) a judicial
district in which any defendant resides, if all defendants are residents of the State in
which the district is located; (2) a judicial district in which a substantial part of the
events or omissions giving rise to the claim occurred, or a substantial part of property
that is the subject of the action is situated; or (3) if there is no district in which an action

2

Case l:20-cv-00506-DNH-ATB Document 5 Filed 05/12/20 Page 3 of 8

may otherwise be brought as provided in this section, any judicial district in which any
defendant is subject to the court's personal jurisdiction with respect to such action.” 28
U.S.C. § 1391(b).
When a case is filed in a district in which venue is improper, the court shall
dismiss the case or, “if it be in the interest of justice, transfer such case to any district..
. in which it could have been brought.” 28 U.S.C. § 1406(a). Even if venue is proper, a
district court may sua sponte transfer an action in the interest of justice and for the
convenience of the parties and witnesses to any other district where it might have been
brought. 28 U.S.C. § 1404(a); Ferens v. John Deere Co., 494 U.S. 516, 530 (1990);
Lead Indus. Ass 'n, Inc. v. Occupational Safety & Health Admin., 610 F.2d 70, 79 n.17
(2d Cir. 1979) (citing cases); Kelly v. Kelly, 911 F. Supp. 70, 71 (N.D.N.Y. 1996).
“The purpose of section 1404(a) is to prevent the waste of time, energy and money and
to protect litigants, witnesses and the public against unnecessary inconvenience and
expense.” Flaherty v. All Hampton Limousine, Inc., No. 01-CV-9939, 2002 WL
1891212, at *1 (S.D.N.Y. Aug. 16, 2002) (internal quotations marks omitted).
When considering whether to transfer an action sua sponte, courts follow the
same traditional analysis used when a party moves for a change of venue. See, e.g.,
Flaherty, 2002 WL 1891212, at *1-2; Haskel v. FPR Registry, Inc., 862 F. Supp. 909,
916 (E.D.N.Y. 1994). Specifically, “[mjotions to transfer venue are governed by a
two-part test: (1) whether the action to be transferred might have been brought in the
transferee venue; and (2) whether the balance of convenience and justice favors
transfer.” Flaherty, 2002 WL 1891212, at *1.

3

Case l:2Q-cv-00506-DNH-ATB Document 5 Filed 05/12/20 Page 4 of 8

B.

Application

Venue in this district is likely improper. Plaintiff seems to be claiming that,
because the appeal from his benefits case was decided in his favor, the original hearing
decision was in violation of his “civil rights.”1 Although plaintiff has listed the address
of the New York State Office of Temporary & Disability Assistance “Staff’ as Albany,
New York which is located in the Northern District of New York, the Albany address is
where the appeal was decided in his favor. Plaintiffs appeal was from “a determination
by the Erie County Department of Social Services.”2 (Compl. at CM/ECF p.6). The fair
hearing was held in “Erie County before an Administrative Law Judge.” (Id.) If
anything, plaintiff is attempting to claim that the Erie County Fair Hearing was in
violation of his “civil rights.” Clearly, deciding the appeal in plaintiffs favor was not
the “violation” to which plaintiff is referring.
Erie County is in the Western District of New York. The Fair Hearing that
plaintiff appealed took place in the Western District of New York, and the “staff’ that
allegedly denied plaintiffs civil rights is, if anywhere, in the Western District of New
York. Although plaintiff has not specifically alleged what actions violated his civil
rights, all of those acts or omissions related to plaintiffs claim took place in the
Western District of New York. There is no connection to the Northern District of New
York.

Plaintiff does not actually mention the “constitution” or what “civil rights” he believes were
violated.
2 Plaintiff has attached these documents as exhibits to his complaint. Because he has failed to
number the pages of his exhibits, the court will cite to the pages as assigned by the court’s electronic
filing system, CM/ECF.
4

Case l:20-cv-00506-DNH-ATB Documents Filed 05/12/20 Page 5 of 8

Plaintiffs attempt at creating venue in this district is improper. The court must
then determine whether the case should be dismissed, or transferred in the interests of
justice. Even if plaintiff could have brought this case in the Northern District of New,
the court must consider whether the action could have been brought in the transferee
district, and whether the balance of convenience and justice favors transfer.
According to the venue statute, the court could dismiss this action. However,
this plaintiff appears to have filed this action in the Northern District of New York to
avoid an order barring him from filing cases in the Western District of New York
without permission from the court. The court notes that plaintiff has been issued bar
orders in both the Western District of New York and in the Second Circuit Court of
Appeals. See In re Hines, No. 17-2090, 2017 WL 6803304 (2d Cir. July 28, 2017)
(stating that on May 5, 2016, the Second Circuit “entered an order in In Re: Dashon
Hines, 15-4094 requiring [plaintiff] to file a motion seeking leave of this Court prior to
filing any future appeals”); In re Hines, No. 13-MC-27A, 2005 WL 500800 (W.D.N.Y.
Feb. 3, 2015) (barring plaintiff from bringing actions in the Western District of New
York for a year). The Western District’s decision in In re Hines was reversed by the
. Second Circuit to the extent that it barred plaintiff from filing any type of case for any
reason.
The Second Circuit remanded the case to the Western District of New York to
give plaintiff the opportunity to argue against this additional sanction. In re Hines, No.
15-359 (2d Cir. Apr. 15, 2015) (Dkt. No. 26 in 15-359). After giving plaintiff the
opportunity for argument, on November 24, 2015, the court in the Western District of

5

Case l:20-cv-00506-DNH-ATB Document 5 Filed 05/12/20 Page 6 of 8

New York issued another order, requiring that plaintiff file a request for permission to
file a lawsuit in the Western District and holding that plaintiff would be fined if he had
three or more request denied. (Dkt. No. 13 in 13-MC-27A). Plaintiffs subsequent
appeal of the new Western District order was denied by the Second Circuit on August
23, 2017. (Dkt. No. 25 in 13-MC-27A).
On March 1, 2018, the Second Circuit issued another order dismissing three
consolidated appeals filed by this plaintiff because the appeals did not “depart from
—A

‘Petitioner’s prior pattern of vexatious filings.’” In re Hines, Nos. 18-233, 18-310, 18312 (2d Cir. Mar. 1, 2018) (Dkt. No. 18 in Second Circuit consolidated appeal).
Plaintiff has now filed multiple actions with improper venue in this district. On
April 29, 2020,1 ordered the transfer of Hines v. IRS, No. 5:20-CV-469 (DNH/ATB)
(N.D.N.Y. Apr. 29, 2020). On May 6, 2020,1 ordered plaintiffs employment
discrimination complaint transferred to the Western District of New York. Hines V.
TopShelfManagement, No. 5:20-CV-505 (MAD/ATB) (N.D.N.Y. May 6, 2020). The
fact that plaintiff has filed another case with improper venue in the Northern District of
New York solidifies this court’s suspicion that plaintiff is simply trying to avoid the
Western District’s bar order, which provides for sanctions if plaintiff files three or more
requests which are denied. As I stated in Hines v. IRS, plaintiff should not be allowed
to avoid these requirements by filing another lawsuit in a different district. Thus,
instead of recommending dismissal, this court will order plaintiff s case to be
transferred to the Western District of New York, where it should have been filed and
where plaintiff may have to accept the consequences of any finding that his complaint

6

Case l:20-cv-00506-DNH-ATB Document 5 Filed 05/12/20 Page 7 of 8

does not comply with the Western District’s orders.
Although this court makes no finding on the merits of this action, it is arguable
that plaintiff is filing yet another frivolous case. In my May 6, 2020 transfer order, I
expressed my concern that'plaintiff was going to make a habit of filing cases in the
Northern District of New York with improper venue in order to avoid his fate in the
Western District. Therefore, I warned plaintiff that if he continued to file cases which
clearly belong in the Western District of New York, the court may initiate the
procedure to have plaintiff barred in the Northern District of New York as well.
Because plaintiff has filed several cases in quick succession, and this case was filed on
May 4, 2020, he did not have the chance to see my warning prior to filing this action.
Thus, I will reiterate my warning here.
Based upon the foregoing, the Court finds that venue of plaintiff s action is not
proper in this District, and even if venue were proper, the balance of justice and
convenience favors transfer. The Court will transfer this action under Section 1406(a)
and/or 1404(a) to the United States District Court for the Western District of New
York. The Court makes no ruling as to the sufficiency of the Complaint or the
.merits of Plaintiff s IFP Application, thereby leaving those determinations to the
Western District.
WHEREFORE, it is
ORDERED that, pursuant to 28 U.S.C. § 1406(a) and/or 1404(a), the Clerk of
this Court shall transfer this action to the United States District Court for the Western
District of New York; and it is further

7

Case l:20-cv-00506-DNH-ATB Documents Filed 05/12/20 Page 8 of 8
*

ORDERED that the Clerk of this Court advise the Clerk of the Western District
of New York of the entry of this Decision and Order and provide all information
necessary for the Clerk of the Western District to electronically access the documents
filed in this action. The Court hereby waives the fourteen (14) day waiting period
provided for in Local Rule 83.6; and it is further,
ORDERED that the Clerk serve a copy of this Decision and Order on the
Plaintiff.
Dated: May 12, 2020

Hon. Andrew T. Baxter
U.S. Magistrate Judge

8

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
DASHON HINES,
Plaintiff,
v.
l:20-CV-536
(DNH/ATB)

ERIE COUNTY DEPARTMENT
OF SOCIAL SERVICES,
Defendants.
DASHON HINES, Plaintiff pro se
ANDREW T. BAXTER
United States Magistrate Judge
DECISION and ORDER

The Clerk has sent to me for initial review, another pro se complaint, submitted
by plaintiff Dashon Hines. (Complaint (“Compl.”)) (Dkt. No. 1). Plaintiff has also filed
an application to proceed in forma pauperis (“IFP”). (Dkt. No. 2).
I.

IFP Application
Plaintiff declares in his IFP application that he is unable to pay the filing fee.

(Dkt. No. 2). Because I am transferring this action to the Western District of New
York, I decline to address plaintiffs application, and the transferee court may make a
proper determination of plaintiffs motion.
II.

Complaint
Plaintiff has filed this action on a form utilized for claims under 42 U.S.C.

§ 1983, which provides for a cause of action alleging that plaintiffs federal
constitutional rights have been violated by a person acting under color of state law.
(Complaint (“Compl.”)) (Dkt. No. 1). In his statement of facts, plaintiff states that on

■

t

May 1, 2020, the Erie County Department of Social Services issued public assistance in
the amount of $352 in cash and $194 in SNAP per month from May 1, 2020 through
February 28, 2021. (Complaint (“Compl.”)

4). No further facts are stated. Plaintiffs

“First Cause of Action” repeats the above statement verbatim, with no additional facts.
(Compl. f 5). Plaintiff then seeks one million dollars. (Compl. U 6).
III.

Venue
A.

Legal Standards

Under 28 U.S.C. § 1391(b), a civil action may be brought in “(1) a judicial
district in which any defendant resides, if all defendants are residents of the State in
which the district is located; (2) a judicial district in which a substantial part of the
events or omissions giving rise to the claim occurred, or a substantial part of property
that is the subject of the action is situated; or (3) if there is no district in which an action
may otherwise be brought as provided in this section, any judicial district in which any
defendant is subject to the court's personal jurisdiction with respect to such action.” 28
U.S.C. § 1391(b).
When a case is filed in a district in which venue is improper, the court shall
dismiss the case or, “if it be in the interest of justice, transfer such case to any district. .
. in which it could have been brought.” 28 U.S.C. § 1406(a). Even if venue is proper, a
district court may sua sponte transfer an action in the interest of justice and for the
convenience of the parties and witnesses to any other district where it might have been
brought. 28 U.S.C. § 1404(a); Ferens v. John Deere Co., 494 U.S. 516, 530 (1990);
Lead Indus. Ass ’n, Inc. v. Occupational Safety & Health Admin., 610 F.2d 70, 79 n. 17

2

(2d Cir. 1979) (citing cases); Kelly v. Kelly, 911 F. Supp. 70, 71 (N.D.N.Y. 1996).
The purpose of section 1404(a) is to prevent the waste of time, energy and money and
to protect litigants, witnesses and the public against unnecessary inconvenience and
expense.” Flaherty v. All Hampton Limousine, Inc., No. 01-CV-9939, 2002 WL
1891212, at *1 (S.D.N.Y. Aug. 16, 2002) (internal quotations marks omitted).
When considering whether to transfer an action sua sponte, courts follow the
same traditional analysis used when a party moves for a change of venue. See, e.g.,
Flaherty, 2002 WL 1891212, at *1-2; Haskel v. FPR Registry!, Inc., 862 F. Supp. 909,
916 (E.D.N.Y. 1994). Specifically, “[mjotions to transfer venue are governed by a
two-part test: (1) whether the action to be transferred might have been brought in the
transferee venue; and (2) whether the balance of convenience and justice favors
transfer.” Flaherty, 2002 WL 1891212, at *1.
B.

Application

Venue in this district is improper. Aside from the likely frivolous nature of
plaintiffs “complaint,” Erie County is in the Western District of New York. Although
plaintiff has not alleged why the issuance of public assistance or SNAP benefits
violated his constitutional rights, nor has he named any individual responsible for
whatever violation he thinks he has suffered, any act or omission occurred in the
Western District of New York. Plaintiff lives in the Western District of New York, and
any relevant evidence or witnesses to the violation would be located in the Western
District of New York. There is no connection to the Northern District of New York,
and thus, venue is improper. The court must then determine whether the case should be

3

dismissed, or transferred in the interests of justice.
According to the venue statute, the court could dismiss this action. However,
this plaintiff appears to have filed this action in the Northern District of New York to
avoid an order barring him from filing cases in the Western District of New York
without permission from the court. The court notes that plaintiff has been issued bar
orders in both the Western District of New York and in the Second Circuit Court of
Appeals. See In re Hines, No. 17-2090, 2017 WL 6803304 (2d Cir. July 28, 2017)
(stating that on May 5, 2016, the Second Circuit “entered an order in In Re: Dashon
Hines, 15-4094 requiring [plaintiff] to file a motion seeking leave of this Court prior to
filing any future appeals”); In re Hines, No. 13-MC-27A, 2005 WL 500800 (W.D.N.Y.
Feb. 3, 2015) (barring plaintiff from bringing actions in the Western District of New
York for a year). The Western District’s decision in In re Hines was reversed by the
Second Circuit to the extent that it barred plaintiff from filing any type of case for any
reason.
The Second Circuit remanded the case to the Western District of New York to
give plaintiff the opportunity to argue against this additional sanction. In re Hines, No.
15-359 (2d Cir. Apr. 15, 2015) (Dkt. No. 26 in 15-359). After giving plaintiff the
opportunity for argument, on November 24,2015, the court in the Western District of
New York issued another order, requiring that plaintiff file a request for permission to
file a lawsuit in the Western District and holding that plaintiff would be fined if he had
three or more request denied. (Dkt. No. 13 in 13-MC-27A). Plaintiffs subsequent
appeal of the new Western District order was denied by the Second Circuit on August

4

23, 2017. (Dkt. No. 25 in 13-MC-27A).
On March 1, 2018, the Second Circuit issued another order dismissing three
consolidated appeals filed by this plaintiff because the appeals did not “depart from
‘Petitioner’s prior pattern of vexatious filings.’” In re Hines, Nos. 18-233, 18-310, 18312 (2d Cir. Mar. 1, 2018) (Dkt. No. 18 in Second Circuit consolidated appeal).
Plaintiff has now filed multiple actions with improper venue in this district. On
April 29, 2020,1 ordered the transfer of Hines v. IRS, No. 5:20-CV-469 (DNH/ATB)
(N.D.N.Y. Apr. 29, 2020). On May 6, 2020,1 ordered plaintiffs employment
discrimination complaint transferred to the Western District of New York. Hines v.
TopShelfManagement, No. 5:20-CV-505 (MAD/ATB) (N.D.N.Y. May 6, 2020). On
May 12, 2020,1 ordered the transfer of Hines v. New York State Office of Temporary &
Disability Assistance Staff, No. l:20-CV-506 (DNH/ATB) (N.D.N.Y. May 12, 2020).
The fact that plaintiff has filed another case with improper venue in the Northern
District of New York further supports this court’s suspicion that plaintiff is simply
trying to avoid the Western District’s bar order, which provides for sanctions if plaintiff
files three or more requests which are denied. As I have stated in each transfer order,
plaintiff should not be allowed to avoid these requirements by filing another lawsuit in
a different district. Thus, instead of recommending dismissal, this court will order
plaintiffs case to be transferred to the Western District of New York, where it should
have been filed and where plaintiff may have to accept the consequences of any finding
that his complaint does not comply with the Western District’s orders.
Although this court makes no finding on the merits of this action, it is arguable

5

that plaintiff is filing yet another frivolous case.1 In my May 6, 2020 transfer order, I
expressed my concern that plaintiff was going to make a habit of filing cases in the
Northern District of New York with improper venue in order to avoid his fate in the
Western District. Therefore, I warned plaintiff that if he continued to file cases which
clearly belong in the Western District of New York, the court may initiate the
procedure to have plaintiff barred in the Northern District of New York as well. I
repeated this warning in my May 12, 2020 transfer order. Because plaintiff has filed
several cases in quick succession, and this complaint was signed on May 5, 2020, he
may not have the chance to see my warning prior to filing this action. Thus, I will
repeat my warning here.
Based upon the foregoing, the Court finds that venue of plaintiff s action is not
proper in this District. The Court will transfer this action under Section 1406(a) to the
United States District Court for the Western District of New York. The Court makes
no ruling as to the sufficiency of the Complaint or the merits of Plaintiff s IFP
Application, thereby leaving those determinations to the Western District.
WHEREFORE, it is
ORDERED that, pursuant to 28 U.S.C. § 1406(a), the Clerk of this Court shall

Although not addressing the merits of this action, I note that plaintiff has failed to state any
violation of his constitutional rights in this complaint. He merely states that the Erie County
Department of Social Services issued benefits in his favor, hi addition, plaintiff may not sue an
“agency” or “department.” Departments that are merely administrative arms of a municipality do not
have a legal identity separate from the municipality and may not sue or be sued. Rose v. County of
Nassau, 904 F. Supp. 2d 244, 247 (E.D.N.Y. Nov. 9, 2012) (citing Hall v. City of White Plains, 185 E.
Supp. 2d 293, 303 (S.D.N.Y.2002) (dismissing claim against the police department); Umhey v. County
of Orange, 957 F. Supp. 525, 530-31 (S.D.N.Y. 1997) (dismissing case against the County Board of
Ethics).
6

transfer this action to the United States District Court for the Western District of New
York; and it is further
ORDERED that the Clerk of this Court advise the Clerk of the Western District
of New York of the entry of this Decision and Order and provide all information
necessary for the Clerk of the Western District to electronically access the documents
filed in this action. The Court hereby waives the fourteen (14) day waiting period
provided for in Local Rule 83.6; and it is further,
ORDERED that the Clerk serve a copy of this Decision and Order on the
Plaintiff.
Dated: May 15, 2020

US. Magistrate Judge

7

Case l:20-cv-00517-DNH-ATB Documents Filed 06/05/20 Page 1 of 4

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
DASHON HINES,
Plaintiff,
-v-

1:20-CV-517
(DNH/ATB)

NEW YORK STATE DEPARTMENT OF
LABOR STAFF,
Defendant.

APPEARANCES:
DASHON HINES
Plaintiff pro se
1629 Elmwood Avenue
Apartment# 14
Buffalo, NY 14207
DAVID N. HURD
United States District Judge

DECISION and ORDER
Pro se plaintiff Dashon Hines brought this alleged civil rights action on May 7, 2020.
On May 18, 2020, the Honorable Andrew T. Baxter, United States Magistrate Judge advised
by Order and Report-Recommendation that plaintiffs complaint be dismissed without
prejudice for failure to state a claim pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii), but that he be
given thirty (30) days within which to amend his complaint. On May 20, 2020, this Court
received from plaintiff a form civil rights complaint dated and signed May 6, 2020, which was
docketed as an amended complaint. ECF No. 4. Plaintiff thereafter filed an amended

Case l:20-cv-00517-DNH-ATB Documents Filed 06/05/20 Page 2 of 4

motion for leave to proceed in forma pauperis, ECF No. 5, and objections to the Order and
Report-Recommendation, ECF No. 6.1
Based upon a de novo review of the portions2 of the Order and ReportRecommendation to which plaintiff objected, the Order and Report-Recommendation is
accepted and adopted in all respects. See 28 U.S.C. § 636(b)(1).
A review of plaintiff's amended complaint and accompanying submissions pursuant
to 28 U.S.C. § 1915(e) affirms that his claim, on these facts, is not viable. The amended
complaint differs from the original pleading in that it states "ON MAY 6, 2020, THE NEW
YORK STATE DEPARTMENT OF LABOR STAFF ISSUED AN UNEMPLOYMENT BENEFIT
TOTAL OF $5,174.00." Am. Compl.

4, 5. The amended complaint includes exhibits

showing the New York State Department of Labor did in fact grant unemployment benefits to
plaintiff.
With his amended complaint, plaintiff has also included copies of decisions in four
different civil actions filed within this District, in this year alone, but provides no explanation
or their relevance. See Hines v. IRS, No. 5:20-CV-469; Hines v. TopShelf Mgmt., No.
5:20-CV-505; Hines v. N.Y.S. Office of Temp. & Disability Assistance Staff, No. 1:20-CV-506;

1 It is also noted that on June 4, 2020, plaintiff emailed five attachments to the Northern District
of New York's Jury Administration Office email address, Jury@nynd.uscourts.gov. Plaintiff is reminded
that in accordance with the Federal Rules of Civil Procedure, N.D.N.Y. Local Rule 5.1, and the N.D.N.Y.
Pro Se Handbook, Chapter VI, C, pro se litigants must either deliver documents to the Clerk of the Court
in person, or send documents in the mail. Filings are not accepted by email.
2 According to plaintiffs submission, he objects to "The ENTIRE Report and Recommendation."
ECF No. 6 (emphasis in original).
-2-

Case l:20-cv-00517-DNH-ATB Document 8 Filed 06/05/20 Page 3 of 4

Hines v. Bryant & Stratton Coll., No. 5:20-CV-507. Each of those cases have been
transferred to the Western District of New York.3
As Judge Baxter opined in his Order and Report-Recommendation, "[a]s it is
written, plaintiffs complaint does not state a claim and borders on the frivolous." EOF No. 3,
8. The amended complaint is no different. If anything, it is even more confusing because
plaintiff acknowledges that defendant did, in fact, issue him unemployment benefits, the very
failure of which plaintiff complained of in his initial complaint. In his objections, plaintiff
confirms that defendant granted his claim for unemployment benefits but asserts that they
have not been issued to his bank of choice. He again claims unreasonable delay in the
[ issuance of benefits, but his own documentation shows that benefits were granted to him on
May 6, 2020, effective as of March 9, 2020. Plaintiff does not allege that he made any
further attempts to contact defendant regarding the bank deposit issue, and he has not
shown an "unreasonable delay" sufficient to state a due process claim. See, e.g., David v.
Comm'r of Labor, No. 91 Civ. 7987, 1992 WL 25200 (S.D.N.Y. Jan. 31, 1992).
Generally, when the court dismisses a pro se complaint sua sponte, the court
should afford the plaintiff the opportunity to amend at least once, however, leave to
re-plead may be denied where any amendment would be futile. Ruffolo v. Oppenheimer
& Co., 987 F.2d 129, 131 (2d Cir. 1993). Futility is present when the problem with
plaintiffs causes of action is substantive such that better pleading will not cure it. Cuoco v.
Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000) (citation omitted). Plaintiffs amended complaint

3 Though not included in his submissions, plaintiff recently filed an additional civil action, which
was also transferred to the Western District of New York. See Hines v. Erie County Dep't ofSoc. Servs.,
No.1:20-CV-536.
-3-

Case l:20-cv-00517-DNH-ATB Document 8 Filed 06/05/20 Page 4 of 4

fails to cure the deficiencies in his initial complaint identified by Judge Baxter. Based on
plaintiffs submissions, the court is doubtful that he can amend his complaint to state a claim,
and he has already been permitted an opportunity to do so once. Accordingly, plaintiffs
amended complaint will be dismissed, without prejudice, and without the opportunity for
amendment.
There is no need to consider plaintiffs amended motion for leave to proceed in
forma pauperis and that motion will be denied as moot.
Therefore, it is
ORDERED that
1. Plaintiffs amended complaint, ECF No. 4, is DISMISSED in its entirety without
prejudice and without the opportunity for amendment;
2. Plaintiffs amended motion for leave to proceed in forma pauperis, ECF No. 5, is
DENIED as moot; and
3. The Clerk is directed to enter judgment accordingly and close the file.
IT IS SO ORDERED.

Dated: June 5, 2020,
Utica, New York.

-4-

^ase ±:zu-cv-uuo.u-uiNn-Ai o

Document j Miea uo/io/^u Kage i ot iu

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

DASHON HINES,
Plaintiff,
v.

1:20-CV-517
(DNH/ATB)

NEW YORK STATE DEPARTMENT
OF LABOR STAFF,
Defendants.
DASHON HINES, Plaintiff pro se
ANDREW T. BAXTER
United States Magistrate Judge
ORDER and REPORT-RECOMMENDATION

The Clerk has sent to me for initial review, another pro se complaint, submitted
by plaintiff Dashon Hines. (Complaint (“Compl.”)) (Dkt. No. 1). Plaintiff has also filed
an application to proceed in forma pauperis (“IFP”). (Dkt. No. 2).
I.

IFP Application
Plaintiff declares in his IFP application that he is unable to pay the filing fee.

(Dkt. No. 2). Upon close review of the document, this court finds that plaintiff may not
have completed the application properly. Plaintiff claims that in the past 12 months, he
has not received income from any of the five listed sources on the form. (Dkt. No. 2, f
3). However, in Hines v. TopShelf Management, No. 5:20-CV-505 (MAD/ATB),
plaintiff alleged that, until March 19, 2020, he was employed, and presumably was
getting paid for his employment. (Dkt. No. 1 in 20-CV-505). Thus, to say that he has
received no money from any sources for the past twelve months is clearly incorrect. In
addition, in various of his other lawsuits, he is complaining about money that he

Case l:20-cv-00517-DNH-ATB Document 3 Filed 05/18/20 Page 2 of 10

received or money that was deposited in his bank account.1 Thus, plaintiffs IFP is
likely incorrect, either intentionally or because of a misunderstanding of the
information requested by the form.2 Thus, it is unclear whether plaintiff meets the
financial criteria for proceeding IFP. However, because plaintiff is currently
unemployed and he is receiving public assistance benefits, the court will determine for
purposes of this Order and Report-Recommendation, that plaintiff meets the financial
criteria for proceeding IFP.
In addition to determining whether plaintiff meets the financial criteria to
proceed IFP, the court must also consider the sufficiency of the allegations set forth in
the complaint in light of 28 U.S.C. § 1915, which provides that the court shall dismiss
the case at any time if the court determines that the action is (i) frivolous or malicious;
(ii) fails to state a claim on which relief may be granted; or (iii) seeks monetary relief
against a defendant who is immune from such relief. 28 U.S.C. § 1915(e)(2)(B)(i) -(iii).
In determining whether an action is frivolous, the court must consider whether
the complaint lacks an arguable basis in law or in fact. Neitzke v. Williams, 490 U.S.
319, 325 (1989). Dismissal of frivolous actions is appropriate to prevent abuses of
court process as well as to discourage the waste of judicial resources. Neitzke, 490 U.S.
at 327; Harkins v. Eldridge, 505 F.2d 802, 804 (8th Cir. 1974). Although the court has

1 See Hines v. IRS, No. 5:20-CV-469 (IRS deposited money into plaintiffs bank account);
Hines v. Erie County Dep’t ofSoc. Services, No. l:20-CV-536 (DSS awarded plaintiff public
assistance and SNAP benefits).
2 The plaintiffs previous IFP applications all suffered from some problem in the completion of
the form, but this court has not yet been required to address the issue because all of plaintiff s previous
lawsuits have been transferred to the Western District of New York, without consideration of the
merits of plaintiffs IFP application.
2

Case l:20-cv-00517-DNH-ATB Document 3 Filed 05/18/20 Page 3 of 10

a duty to show liberality toward pro se litigants, and must use extreme caution in
ordering sua sponte dismissal of a pro se complaint before the adverse party has been
served and has had an opportunity to respond, the court still has a responsibility to
determine that a claim is not frivolous before permitting a plaintiff to proceed.
Fitzgerald v. First East Seventh St. Tenants Corp., 221 F.3d 362, 363 (2d Cir. 2000)
(finding that a district court may dismiss a frivolous complaint sua sponte even when
plaintiff has paid the filing fee).
To survive dismissal for failure to state a claim, the complaint must contain
sufficient factual matter, accepted as true, to state a claim that is “plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)). “Threadbare recitals of the elements of a cause of action,
supported by mere conclusory statements, do not suffice.” Id. (citing Bell Atl. Corp.,
550 U.S. at 555).
II.

Complaint
Plaintiff has filed this action on a form utilized for claims under 42 U.S.C.

§ 1983, which provides for a cause of action alleging that plaintiffs federal
constitutional rights have been violated by a person acting under color of state law.
(Complaint (“Compl.”)) (Dkt. No. 1). In his statement of facts, plaintiff states that on
March 20, 2020, the New York State Department of Labor (“DOL”) Staff refused to
process his DOL claim. (Complaint (“Compl.”) f 4) (Dkt. No. 1). Plaintiff repeats this
statement verbatim in his First Cause of Action. (Compl.

5). In his request for relief,

plaintiff asks that plaintiffs DOL Unemployment Insurance claim “be issued to Dashon

3

Case l:20-cv-00517-DNH-ATB Document 3 Filed 05/18/20 Page 4 of 10

Hines.” (Compl. *|f 6).
Plaintiff has attached exhibits to his complaint, consisting of what appears to be
either all, or part of an online application for Unemployment Insurance benefits, based
on plaintiffs former employment at Top Shelf Management, LLC, a company located
in Buffalo, New York. (Compl. at 6).3
III.

Venue
A.

Legal Standards

Under 28 U.S.C. § 1391(b), a civil action may be brought in “(1) a judicial
district in which any defendant resides, if all defendants are residents of the State in
which the district is located; (2) a judicial district in which a substantial part of the
events or omissions giving rise to the claim occurred, or a substantial part of property
that is the subject of the action is situated; or (3) if there is no district in which an action
may otherwise be brought as provided in this section, any judicial district in which any
defendant is subject to the court's personal jurisdiction with respect to such action.” 28
U.S.C. § 1391(b).
When a case is filed in a district in which venue is improper, the court shall
dismiss the case or, “if it be in the interest ofjustice, transfer such case to any district..
. in which it could have been brought.” 28 U.S.C. § 1406(a). Even if venue is proper, a
district court may sua sponte transfer an action in the interest of justice and for the
convenience of the parties and witnesses to any other district where it might have been
brought. 28 U.S.C. § 1404(a); Ferens v. John Deere Co., 494 U.S. 516, 530 (1990);
3 Plaintiff has not numbered the pages of his exhibits, and therefore, this court will cite to the
page numbers as assigned by the court’s electronic filing system (“CM/ECF”).
4

Case l:20-cv-00517-DNH-ATB Document 3 Filed 05/18/20 Page 5 of 10

Lead Indus. Ass ’n, Inc. v. Occupational Safety & Health Admin., 610 F.2d 70, 79 n. 17
(2d Cir. 1979) (citing cases); Kelly v. Kelly, 911 F. Supp. 70, 71 (N.D.N.Y. 1996).
“The purpose of section 1404(a) is to prevent the waste of time, energy and money and
to protect litigants, witnesses and the public against unnecessary inconvenience and
expense.” Flaherty v. All Hampton Limousine, Inc., No. 01-CV-9939, 2002 WL
1891212, at *1 (S.D.N.Y. Aug. 16, 2002) (internal quotations marks omitted).
When considering whether to transfer an action sua sponte, courts follow the
same traditional analysis used when a party moves for a change of venue. See, e.g.,
Flaherty, 2002 WL 1891212, at *1-2; Haskel v. FPR Registry, Inc., 862 F. Supp. 909,
916 (E.D.N.Y. 1994). Specifically, “[mjotions to transfer venue are governed by a
two-part test: (1) whether the action to be transferred might have been brought in the
transferee venue; and (2) whether the balance of convenience and justice favors
transfer.” Flaherty, 2002 WL 1891212, at *1.
B.

Application

1.

Transfer

The court has considered transferring this action because it is well-aware that
plaintiff resides in the Western District of New York and likely filed this case in the
Northern District of New York because he is attempting to avoid a bar order in the
Western District. However, because plaintiff has named the DOL in Albany, and
because plaintiff apparently applied for benefits online, rather than transferring this
action, I will conduct the initial review, assuming that venue is appropriate in the
Northern District of New York.

5

Case l:20-cv-00517-DNH-ATB Documents Filed 05/18/20 Page 6 of 10

2.

Merits

In this case, plaintiff has named the DOL “Staff’ as a defendant.4 Plaintiff has
listed the defendant’s address as a location in Albany, New York. (Compl. f 3(a)).
Plaintiff claims that he applied for unemployment insurance on March 20, 2020, but the
defendant failed to process the application. From what this court can interpret,5
plaintiffs claim is that a representative of the DOL failed to contact plaintiff about his
claim within 72 hours, as promised on the website.6 (Compl. at 7). Another document
attached to plaintiffs complaint indicates that on May 1, 2020, he submitted an
“Unemployment Insurance Technical Help Form,” stating that he needed to speak with
an “investigator” to complete his claim and requesting that an investigator call him
back. (Compl. at 10).
In David v. Commissioner ofLabor, No. 91 Civ. 7987, 1992 WL 25200
(S.D.N.Y. Jan. 31, 1992), plaintiff sued, inter alia, the Commissioner of Labor for an
injunction, awarding him unemployment insurance benefits. The court dismissed the
action for failure to state a claim. Id. The court recognized that plaintiffs right to be
considered for unemployment benefits could not be deprived without due process, that

4 Plaintiff does not specify any particular individual or individuals as the “staff.” Plaintiff
applied for his benefits online and would be unlikely to know who was processing his application.
Thus, this court will refer to the defendant in the singular.
5 The court must interpret pro se complaints to raise the strongest arguments they suggest. See
Burgos v. Hopkins, 14 F.3d 787, 790 (2d Cir. 1994) (pro se papers are interpreted liberally to raise the
strongest arguments suggested therein).
6 The court notes that the date on the online application “receipt” that plaintiff has provided is
April 10, 2020, not March 20, 2020. (Compl. at 7).
6

Case l:20-cv-00517-DNH-ATB Documents Filed 05/18/20 Page 7 of 10

exhaustion of state remedies was not required before bringing a section 1983 claim, and
that administrative delay might in some cases give rise to a due process violation. Id. at
*1-2 (citations omitted). However, the court dismissed the action, after finding that the
plaintiff was being heard in the administrative proceeding, his challenge was to the
result of the proceedings, rather than the procedure employed, and his complaint failed
to disclose any “unreasonable delay” in the procedure. Id.
Plaintiff in this action has not proceeded very far in his application. According
to the documents attached to his complaint, he applied for benefits on April 10, 2020,
and submitted an online request to the DOL for assistance on May 1, 2020. Plaintiff
states that the DOL “refused” to consider his application. However, there is absolutely
no basis for plaintiffs statement, given the short time that has elapsed since his
submission to the agency and the unprecedented number of claims for unemployment
filed in New York as a result of the ongoing COVID-19 pandemic.7 Although plaintiff
may be able to challenge the procedure used in the DOL,8 he may not, as he has in this
complaint, simply request that the court grant him benefits. In addition, plaintiff has
7 In this case, it is generally known that the COVID-19 shutdown has resulted in the
unemployment of many individuals in New York, potentially overloading the system. The court may
take judicial notice of facts regarding the COVID-19 pandemic that are generally known within the
court’s jurisdiction. See, e.g., Basankv. Decker, No. 20 CIV. 2518, 2020 WL 1953847, at *7 (S.D.N.Y.
Apr. 23,2020) (“The Court takes judicial notice that COVID-19 causes severe medical complications
and has increased lethality amongst people of advanced age, and those with underlying health
problems, or both.”) (collecting cases).
8 See e.g. Moore v. Ross, 502 F. Supp. 503 (S.D.N.Y. 1980), aff’d, 687 F.2d 604 (2d Cir. 1982),
cert, denied, 459 U.S. 1115 (1983) (action brought challenging constitutionality of procedures
employed by New York State Unemployment Insurance Appeal Board). The challenge was brought to
the procedures employed by the Appeal Board, not to the individual results of cases. In Moore, the
District Court distinguished between cases in which the intrinsic procedure of the agency was
challenged, with cases challenging the substantiality of the evidence supporting the agency’s decision,
which would be the responsibility of the state fomm. 502 F. Supp. at 552-53.
7

Case l:20-cv-00517-DNH-ATB Document 3 Filed 05/18/20 Page 8 of 10

not shown an “unreasonable” delay, sufficient to state a due process claim.
As it is written, plaintiffs complaint does not state a claim and borders on the
frivolous. Plaintiff appears to claim that he did not get the agency’s response as
quickly as the website required, and thus asks the court to grant plaintiff his
unemployment insurance benefits. Plaintiff does not allege that he made any other
attempts to contact the DOL. Thus, even though venue is arguably proper in this
action, I will recommend dismissal without prejudice for failure to state a claim.
IV.

Opportunity to Amend
A.

Legal Standards

Generally, when the court dismisses a pro se complaint sua sponte, the court
should afford the plaintiff the opportunity to amend at least once, however, leave to
re-plead may be denied where any amendment would be futile. Ruffolo v. Oppenheimer
& Co., 987 F.2d 129, 131 (2d Cir. 1993). Futility is present when the problem with
plaintiffs causes of action is substantive such that better pleading will not cure it.
Cuoco v. Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000) (citation omitted).
B.

Application

As stated above, plaintiff may not request that this court issue a decision granting
him benefits. At best, he may try to claim some sort of due process violation based on
an alleged delay in the administrative process. However, he has not done so in the
existing complaint. Although the court is doubtful that plaintiff can amend his
complaint to state a claim because he has failed to even allow the agency the
opportunity to consider his claim, the court will recommend dismissal without prejudice

8

Case l:20-cv-00517-DNH-ATB Documents Filed 05/18/20 Page 9 of 10

to allowing plaintiff to amend his complaint.
WHEREFORE, based on the findings above, it is
ORDERED, that plaintiffs application for IFP (Dkt. No. 2) be GRANTED
FOR PURPOSES OF THIS ORDER AND REPORT-RECOMMENDATION
ONLY, and it is
RECOMMENDED, that the complaint be DISMISSED IN ITS ENTIRETY
WITHOUT PREJUDICE for failure to state a claim pursuant to 28 U.S.C. §
I9I5(e)(2)(B)(ii), and it is
RECOMMENDED, that if the court adopts this recommendation, plaintiff be
given THIRTY (30) DAYS WITHIN WHICH TO AMEND HIS COMPLAINT,
and if plaintiff files a proposed amended complaint within the time provided or within
any time extended by the court, the proposed amended complaint be sent to me for
further review, and it is
RECOMMENDED, that if the court adopts this recommendation and plaintiff
fails to submit a proposed amended complaint within the allotted time or any time
extended by the court, the complaint be dismissed without prejudice, but without the
opportunity for amendment, and it is
ORDERED, that the Clerk serve a copy of this Order and ReportRecommendation on plaintiff by regular mail.
Pursuant to 28 U.S.C. § 636(b)(1) and Local Rule 72.1(c), the parties have
fourteen (14) days within which to file written objections to the foregoing report. Such
objections shall be filed with the Clerk of the Court. FAILURE TO OBJECT TO

9

Case l:20-cv-00517-DNH-ATB Document 3 Filed 05/18/20 Page 10 of 10

THIS REPORT WITHIN FOURTEEN DAYS WILL PRECLUDE APPELLATE
REVIEW. Roldan v. Racette, 984 F.2d 85, 89 (2d Cir. 1993)(citing Small v. Secretary
of Health and Human Services, 892 F.2d 15 (2d Cir. 1989)); 28 U.S.C. § 636(b)(1);
Fed. R. Civ. P. 6(a), 6(e), 72.
Dated: May 18, 2020
Hon. Audrew T. Baxter
U.S. Magistrate Judge

10

Case 5:20-cv-00638-TJM-ATB Document 5 Filed 08/05/20 Page 1 of 3

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

DASHON HINES,
Plaintiff,
vs.

5:20-CV-638
(TJM/ATB)

Lt. ROSE J. DELL, New Haven
Police Department,
Defendant.

Thomas J. McAvoy,
Sr. U.S. District Judge

DECISION & ORDER
The Court referred this pro se civil action, brought pursuant to 42 U.S.C. § 1983, to
Magistrate Judge Andrew T. Baxter for a Report-Recommendation pursuant to 28 U.S.C.
§ 636(b) and Local Rule 72.3(c). Plaintiff alleges that the Defendant, a Lieutenant in the
New Haven, Connecticut, Police Department, violated his rights by ordering him not to
contact Patricia King about an incident he wanted the New Haven Police Department to
Investigate. Patricia King is New Haven Corporate Counsel. Plaintiff resides in Buffalo,
New York.
Magistrate Judge Baxter’s Report-Recommendation, dkt. # 157, issued on June 11,
2020, recommends that Plaintiffs complaint be dismissed without prejudice to Plaintiff
filing the Complaint in a proper venue. Magistrate Judge Baxter notes that Plaintiff, who
resides in the Western District of New York, is subject to a filing restriction in that District,
1

Case 5:20-cv-00638-TJM-ATB Document 5 Filed 08/05/20 Page 2 of 3

and has recently filed a number of cases in this District, apparently in an effort to avoid
that restriction. Magistrate Judge Baxter also finds that venue in this District is improper
because neither of the parties reside in this District, and none of the events giving rise to
the Complaint occurred in the District. Given Plaintiff’s past attempts to manipulate venue
to avoid filing restrictions, however, he does not recommend that the Court transfer the
case to a proper venue. Instead, he recommends that the Court dismiss the case without
prejudice to Plaintiff filing the case in a proper court.
Plaintiff objected to the Report-Recommendation. See dkt. # 4. When a party
objects to a magistrate judge’s Report-Recommendation, the Court makes a “de novo
determination of those portions of the report or specified proposed findings or
recommendations to which objection is made.” See 28 U.S.C. § 636(b)(1). After such a
review, the Court may “accept, reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate judge. The judge may also receive further
evidence or recommit the matter to the magistrate judge with instructions.” ]cL
Plaintiff’s objections largely repeat and amplify the allegations in his Complaint,
which are that he complained about an incident in New Haven to Patricia King. When she
did not respond to that and another request, Defendant Rose Dell of the New Haven
Police Department contacted Plaintiff and asked him to contact Police, rather than King,
about the incident he wanted investigated. None of Plaintiffs objections address the
reason for dismissal of the action-lack of venue-or the reasons why Magistrate Judge
Baxter does not recommend transferring venue to the District of Connecticut. Having
considered all of Plaintiff’s objections, the Court concludes that Report-Recommendation
should be accepted and adopted for the reasons stated therein.
2

Case 5:20-cv-00638-TJM-ATB Document 5 Filed 08/05/20 Page 3 of 3

Accordingly,
Plaintiffs objections to the Report-Recommendation of Magistrate Judge Baxter,
dkt. #4, are hereby OVERRULED. The Report-Recommendation, dkt. # 3, is hereby
ACCEPTED and ADOPTED. The Plaintiffs Complaint is hereby DISMISSED without
prejudice for lack of venue. The Clerk of Court is directed to CLOSE the case.

IT IS SO ORDERED.

Dated:August 5, 2020

Thomas J
Senior, U.S. District Judge

3

Case 5:20-cv-00638-TJM-ATB Document 3 Filed 06/11/20 Page 1 of 6

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

DASHON HINES,
Plaintiff,
v.
5:20-CV-638
(TJM/ATB)

LT. ROSE J. DELL, Lt. New Haven
Police Dep’t,
Defendant.
DASHON HINES, Plaintiff pro se
ANDREW T. BAXTER
United States Magistrate Judge
ORDER and REPORT-RECOMMENDATION

The Clerk has sent to me for initial review, another pro se complaint, submitted
by plaintiff Dashon Hines. (Complaint (“Compl.”)) (Dkt. No. 1). Plaintiff has also filed
an application to proceed in forma pauperis (“IFP”). (Dkt. No. 2).
I.

IFP Application
Plaintiff declares in his IFP application that he is unable to pay the filing fee.

(Dkt. No. 2). However, the form also indicates that he has no money from any sources,
whatsoever, something which this court knows from other cases filed by this plaintiff is
untrue. In any event, the court will allow the filing of this action for the sole purpose of
recommending dismissal.
II.

Complaint
Plaintiff has filed this action on a form utilized for claims under 42 U.S.C.

§ 1983, which provides for a cause of action alleging that plaintiffs federal
constitutional rights have been violated by a person acting under color of state law.

Case 5:20-cv-00638-TJM-ATB Document 3 Filed 06/11/20 Page 2 of 6

(Complaint (“Compl.”)) (Dkt. No. 1). Plaintiff has sued a Lieutenant in the New
Haven, Connecticut Police Department. Plaintiffs only facts are as follows:
On June 4, 2020, Lt. Rose J. Dell stated: “Mr. Hines, please
do not contact Patricia King of Corporate Counsel regarding
the incident you wanted investigated by the Police
Department. You need to speak with the investigating
Officer. Please call either the non-emergency number at at
[sic] 203-946-6316 or 203-946-6255 to speak with the Front
Desk Sergeant.
(Compl. f 4) (Facts). The plaintiffs “First Cause of Action” merely repeats the above
paragraph word for word. (Compl. f 5). Plaintiff requests one million dollars in
damages. (Compl. 16).
As exhibits to the complaint, plaintiff has attached two copies of the actual email
sent by Lt. Dell, who apparently is the officer in charge of the Records Unit of the New
Haven, Connecticut Police Department. (Compl. at CM/ECF p.5-6).1 Lieutenant Dell’s
email is dated June 4, 2020 at 1:06 p.m. (Id.) Plaintiff apparently responded to
defendant Dell’s email at 7:39 p.m., stating that in his
capacity as a pro se petitioner before the United States District
Court for the Northern District of New York, I demand that
you notify your supervisor of my wish to file a complaint
against you regarding your previous response.... In the event
that I do not hear from your supervisor, I will assume you did
nothing concerning requests to speak with your supervisor
and submit formal complaints against you for misconduct.
(Id.) This action was filed on June 8, 2020.

1 Plaintiff has not numbered the pages of his “exhibits,” thus this court will cite to the pages
assigned by the court’s electronic filing system, CM/ECF.

2

Case 5:20-cv-00638-TJM-ATB Document 3 Filed 06/11/20 Page 3 of 6

III.

Venue
A.

Legal Standards

Under 28 U.S.C. § 1391(b), a civil action may be brought in “(1) a judicial
district in which any defendant resides, if all defendants are residents of the State in
which the district is located; (2) a judicial district in which a substantial part of the
events or omissions giving rise to the claim occurred, or a substantial part of property
that is the subject of the action is situated; or (3) if there is no district in which an action
may otherwise be brought as provided in this section, any judicial district in which any
defendant is subject to the court’s personal jurisdiction with respect to such action.” 28
U.S.C. § 1391(b).
When a case is filed in a district in which venue is improper, the court “shall
dismiss” the case or, “if it be in the interest of justice, transfer such case to any district.
.. in which it could have been brought.” 28 U.S.C. § 1406(a) (emphasis added). Even
if venue is proper, a district court may sua sponte transfer an action in the interest of
justice and for the convenience of the parties and witnesses to any other district where it
might have been brought. 28 U.S.C. § 1404(a); Ferens v. John Deere Co., 494 U.S.
516, 530 (1990); Lead Indus. Ass ’n, Inc. v. Occupational Safety & Health Admin., 610
F.2d 70, 79 n.17 (2d Cir. 1979) (citing cases); Kelly v. Kelly, 911 F. Supp. 70, 71
(N.D.N.Y. 1996). “The purpose of section 1404(a) is to prevent the waste of time,
energy and money and to protect litigants, witnesses and the public against unnecessary
inconvenience and expense.” Flaherty v. All Hampton Limousine, Inc., No.
01-CV-9939, 2002 WL 1891212, at *1 (S.D.N.Y. Aug. 16, 2002) (internal quotations

3

Case 5:20-cv-00638-TJM-ATB Document 3 Filed 06/11/20 Page 4 of 6

marks omitted).
When considering whether to transfer an action sua sponte, courts follow the
same traditional analysis used when a party moves for a change of venue. See, e.g.,
Flaherty, 2002 WL 1891212, at *1-2; Haskel v. FPR Registry, Inc., 862 F. Supp. 909,
916 (E.D.N.Y. 1994). Specifically, “[m]otions to transfer venue are governed by a
two-part test: (1) whether the action to be transferred might have been brought in the
transferee venue; and (2) whether the balance of convenience and justice favors
transfer.” Flaherty, 2002 WL 1891212, at *1.
B.

Application

Venue in this district is clearly improper. Plaintiff resides in Buffalo, in the
Western District of New York, and defendant resides in Connecticut. There is
absolutely no connection to the Northern District of New York and thus, venue is
improper. The court must then determine whether the case should be dismissed, or
transferred in the interests of justice.
According to the venue statute, the court “shall” dismiss this action. Mr. Hines is
well aware of the venue statute having filed multiple cases in the Northern District of
New York to avoid a bar order in the Western District of New York.2 The Northern
District of New York case which plaintiff cited to defendant Dell has also been

2 See Hines v. IRS, No. 5:20-CV-469; Hines v. TopShelfMgmt., No. 5:20-CV-505; Hines v.
N. Y.S. Office of Temp. & Disability Assistance Staff, No. 1:20-CV-506; Hines v. Bryant & Stratton
Coll., No. 5:20-CV-507; Hines v. Erie County Dep ’t ofSoc. Svces., No. 1:20-CV-536. Each of those
cases were transferred to the Western District of New York. Plaintiff has also been barred from filing
appeals in the Second Circuit Court of Appeals without prior approval. See In re Hines, No. 17-2090,
2017 WL 6803304 (2d Cir. July 28, 2017) (stating that on “May 5, 2016 this Court entered an order in
In Re: Dashon Hines 15-4094 requiring appellant to file a motion seeking leave of this Court prior to
filing any future appeals.”)
4

Case 5:20-cv-00638-TJM-ATB Document 3 Filed 06/11/20 Page 5 of 6

dismissed without the opportunity to amend. See Hines v. New York Dep’t ofLabor
Staff, No. 1:20-CV-517 (DNH/ATB), 2020 WL 3035574 (N.D.N.Y. June 5, 2020).
Before recommending dismissal, I will also address the “interests of justice” in
transferring this case to the District of Connecticut.
Plaintiffs other cases were transferred to the Western District of New York
because the “interests of justice” weighed in favor of transfer. This was not because the
plaintiff simply made a mistake in filing the actions, but because plaintiff was clearly
trying to avoid the bar order as well as paying a fine in the Western District which
would have been imposed upon him for attempting to file frivolous actions.3 Thus, I
found that it was in the interests of justice to transfer plaintiffs cases to the Western
District of New York where he would have to justify his filing and suffer the
consequences of his frivolous lawsuits.
However, in this case, while venue is still improper, plaintiffs unsuspecting
defendant is in Connecticut, where it appears from the court’s electronic filing system,
plaintiff has not yet filed any lawsuits, frivolous or otherwise. Transfer is not in the
interests of justice. Rather than transfer this frivolous action,41 will recommend
dismissal. If plaintiff wishes to file an action in Connecticut, he must do so himself.

3 As I explained in my transfer order in Hines v. IRS, “on November 24, 2015, the court in the
Western District of New York issued [an] order, requiring that plaintiff file a request for permission to
file a lawsuit in the Western District and holding that plaintiff would be fined if he had three or more
requests] denied. Hines v. IRS, No. 5:20-CV-469 (DNH/ATB) (Dkt. No. 4 at 5) (citing Dkt. No. 13 in
In re Hines, No. 13-MC-27A).
4 If venue had been proper in this district, this court would find that plaintiffs action is
frivolous. Plaintiff is upset because defendant Dell told plaintiff in an email that he needed to contact
another individual in order to get information. There is absolutely no violation stated, constitutional or
otherwise. Plaintiff appears to try to use the court as an attempt to manipulate and harass others.
5

Case 5:20-cv-00638-TJM-ATB Document 3 Filed 06/11/20 Page 6 of 6

He will not be assisted by this court.
WHEREFORE, based on the findings above, it is
ORDERED, that the plaintiffs motion to proceed IFP (Dkt. No. 2) be
GRANTED ONLY TO THE EXTENT NECESSARY TO FILE THIS ACTION,
and it is
RECOMMENDED, that the entire action be DISMISSED WITHOUT
PREJUDICE for improper venue in accordance with 28 U.S.C. § 1406(a).
and it is
ORDERED, that the Clerk serve a copy of this Order and ReportRecommendation on plaintiff by regular mail.
Pursuant to 28 U.S.C. § 636(b)(1) and Local Rule 72.1(c), the parties have
fourteen (14) days within which to file written objections to the foregoing report. Such
objections shall be filed with the Clerk of the Court. FAILURE TO OBJECT TO

THIS REPORT WITHIN FOURTEEN DAYS WILL PRECLUDE APPELLATE
REVIEW. Roldan v. Racette, 984 F.2d 85, 89 (2d Cir. 1993)(citing Small v. Secretary
of Health and Human Services, 892 F.2d 15 (2d Cir. 1989)); 28 U.S.C. § 636(b)(1);
Fed. R. Civ. P. 6(a), 6(e), 72.
Dated: June 11, 2020
Andrew T. Baxter
U.S. Magistrate Judge

6

